APPENDIX

1a
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 17-3010
————
BRADLEY BEERS;
JOSEPH DIVITA*,
Appellants,
v.
ATTORNEY GENERAL UNITED STATES OF AMERICA;
DEPARTMENT OF JUSTICE; UNITED STATES BUREAU OF
ALCOHOL TOBACCO FIREARMS & EXPLOSIVES; THOMAS
E. BRANDON, DEPUTY DIRECTOR OF THE ATF; RONALD
B. TURK, ASSOCIATES DEPUTY DIRECTOR/CHIEF
OPERATING OFFICE OF THE ATF; FEDERAL BUREAU OF
INVESTIGATION; DIRECTOR FEDERAL BUREAU OF
INVESTIGATION; UNITED STATES OF AMERICA;
PENNSYLVANIA ATTORNEY GENERAL; PENNSYLVANIA
STATE POLICE; TYREE BLOCKER, COMMISSIONER OF THE
PENNSYLVANIA STATE POLICE; EDWARD DONNELLY,
BUCKS COUNTY SHERIFF; BUCKS COUNTY SHERIFFS
DEPARTMENT; BUCKS COUNTY DISTRICT ATTORNEY.
*(Party Dismissed Pursuant to Court Order
dated 02/13/18)
————

2a
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D. C. Civil No. 2-16-cv-06440)
District Judge: Honorable Legrome D. Davis
————
Argued on July 12, 2018
————
Before: SHWARTZ, ROTH and RENDELL, Circuit
Judges
————
(Opinion filed: June 20, 2019)
————
Michael P. Gottlieb
Vangrossi & Recchuiti
319 Swede Street
Norristown, PA 19401

(ARGUED)

Counsel for Appellant
Tyce R. Walters
(ARGUED)
Patrick Nemeroff
Michael S. Raab
United States Department of Justice
Civil Division
950 Pennsylvania Avenue, N.W.
Washington, DC 20530
Counsel for Appellees
————

3a
OPINION
ROTH, Circuit Judge
INTRODUCTION
Federal law prohibits the possession of firearms by
anyone who has previously been adjudicated as mentally ill or committed to a mental institution. Bradley
Beers challenges this law on the ground that, as
applied to him, it violates the Second Amendment.
Mentally ill individuals have traditionally been
prohibited from possessing guns because they were
considered to be a danger to themselves and to others.
Beers cannot factually distinguish himself from this
historically-barred class because a court has determined that Beers was a danger to himself and thereby
required that he be committed to a mental institution.
Beers contends, however, that, although he was
previously involuntarily institutionalized, he has since
been rehabilitated. For this reason, he argues that his
rehabilitation distinguishes his circumstances from
those in the historically-barred class.
The issue that we must consider then is whether
passage of time and evidence of rehabilitation are
relevant to our inquiry concerning the constitutionality of the prohibition of the possession of firearms by
Beers.
BACKGROUND
Beers was involuntarily committed to a psychiatric
inpatient hospital on December 28, 2005, after he
told his mother that he was suicidal and put a gun in
his mouth. Beers’s mother was particularly concerned
because Beers kept a gun in his room and had the
means to kill himself. Beers was involuntarily admitted
to the hospital for up to 120 hours pursuant to Section

4a
302 of Pennsylvania’s Mental Health Procedures Act
(MHPA).1 The examining physician determined that
Beers was suicidal and that inpatient treatment was
required for his safety.
On December 29, 2005, and again on January 3,
2006, a Pennsylvania court extended Beers’s involuntary commitment pursuant to Sections 303 and 304 of
the MHPA, concluding that he presented a danger to
himself or to others.2 At the court hearings for the
extensions, the Bucks County Court of Common Pleas
determined that Beers was “severely mentally disabled
and in need of treatment.”3
Beers has had no mental health treatment since
2006. A physician who examined Beers in 2013 opined
that Beers was able “to safely handle firearms again
without risk of harm to himself or others.”4 Shortly
after he was discharged from his commitment in 2006,
Beers attempted to buy a firearm but was denied
because a background check revealed that he had been
involuntarily committed to a mental institution.

1

50 Pa. C.S. § 7302 (“Emergency examination may be
undertaken at a treatment facility upon the certification of a
physician stating the need for such examination . . . .”).
2

See 50 Pa. C.S. § 7303(a) (“Application for extended involuntary emergency treatment may be made for any person who is
being treated pursuant to section 302 whenever the facility determines that the need for emergency treatment is likely to extend
beyond 120 hours.”); id. § 7304(a)(2) (“Where a petition is filed for
a person already subject to involuntary treatment, it shall be
sufficient to represent, and upon hearing to reestablish . . . that
his condition continues to evidence a clear and present danger to
himself or others . . . . .” (emphasis added)).
3

App. 8-9; Supp. App. 9-10.

4

App. 10.

5a
Beers subsequently filed a complaint in the United
States District Court for the Eastern District of
Pennsylvania, asserting that 18 U.S.C. § 922(g)(4),5
the federal statute prohibiting him from possessing a
gun, was unconstitutional as applied to him.6 The
government moved to dismiss the complaint.
Applying the two-part test derived from our rulings
in United States v. Marzzarella7 and Binderup v.
Attorney General,8 the District Court first determined
that Beers could not distinguish his circumstances
from those of mentally ill individuals who were subject
to the longstanding prohibitions on firearm possession. The court next held that, pursuant to our ruling
in Binderup, evidence of Beers’s rehabilitation was
irrelevant; thus, Beers could not rely on such evidence
to distinguish his circumstances. As a result, the
court ruled that § 922(g)(4) did not impose a burden
on conduct falling within the scope of the Second
Amendment and was therefore constitutional as
applied to Beers. The District Court dismissed Beers’s
complaint. Beers appeals the District Court’s rejection
of his as-applied Second Amendment challenge to
§ 922(g)(4).9
5

“It shall be unlawful for any person . . . who has been
adjudicated as a mental defective or who has been committed to
a mental institution . . . to . . . possess in or affecting commerce,
any firearm or ammunition; or to receive any firearm or
ammunition which has been shipped or transported in interstate
or foreign commerce.” 18 U.S.C. § 922(g)(4).
6

Beers also asserted due process and equal protection
violations. These claims were not raised on appeal.
7

614 F.3d 85 (3d Cir. 2010).

8

836 F.3d 336 (3d Cir. 2016).

9

While the government’s motion to dismiss Beers’s complaint
in the District Court was still pending, a Pennsylvania court

6a
DISCUSSION10
I. The Framework
Challenges

for

Second

Amendment

When a challenge is made to a law prohibiting
the possession of firearms, we follow our rulings in
Marzzarella and Binderup. Pursuant to these cases,
we are required to conduct a two-part inquiry. First,
we look at the historic, traditional justifications for
barring a class of individuals from possessing guns
and ask whether the challenger can distinguish
his circumstances from those of individuals in the
historically-barred class. If the challenger makes
such a showing, we proceed to the second step, which
requires the government to demonstrate that the challenged law satisfies some form of heightened scrutiny.
A. The Supreme Court’s Decision in District of
Columbia v. Heller
Our jurisprudence in Second Amendment cases is
based on the Supreme Court’s ruling in District of
Columbia v. Heller.11 The Second Amendment provides
that “[a] well-regulated Militia, being necessary to the
security of a free State, the right of the people to keep

restored Beers’s state law right to possess a firearm, pursuant
to 18 Pa. C.S. § 6105(f), which allows the restoration of state
gun ownership rights. Because § 6105(f) does not satisfy federal
requirements allowing for acknowledgement by the federal
government of the state’s restoration of gun rights, Beers remains
subject to the prohibition of § 922(g)(4). See Pub. L. No. 110-180
§ 105, 121 Stat. 2559, 2569-70 (2008).
10

The District Court had jurisdiction under 28 U.S.C. §§ 1331,
2201, 2202, and 2412, and we have jurisdiction under 28 U.S.C.
§ 1291.
11

554 U.S. 570 (2008).

7a
and bear Arms, shall not be infringed.”12 Heller
involved a challenge to a District of Columbia law that
banned handgun possession, including the possession
of handguns in the home. The Supreme Court held in
Heller that the Second Amendment guarantees to an
individual the right – not unlimited – to keep and bear
arms.13 The Court recognized that “[a]t the ‘core’ of
the Second Amendment is the right of ‘law-abiding,
responsible citizens to use arms in defense of hearth
and home.’”14 Because the District of Columbia law in
question violated this core Second Amendment right,
the Court ruled that it was unconstitutional.
However, in articulating the guarantee to keep and
bear arms, the Supreme Court recognized that “the
right was not a right to keep and carry any weapon
whatsoever in any manner whatsoever and for whatever purpose.”15 Indeed, nothing in Heller, according to
the Court, “should be taken to cast doubt on longstanding prohibitions on the possession of firearms by felons
and the mentally ill.”16 The Court therefore identified
such prohibitions as “presumptively lawful,” because
they affect classes of individuals who, historically,
have not had the right to keep and bear arms.17

12

U.S. CONST. amend. II.

13

Heller, 554 U.S. at 595.

14

Binderup, 836 F.3d at 343 (quoting Heller, 554 U.S. at 634-

35).
15

Heller, 554 U.S. at 626.

16

Id.

17

Id. at 627 n.26; see also Binderup, 836 F.3d at 343 (“These
measures comport with the Second Amendment because they
affect individuals or conduct unprotected by the right to keep and
bear arms.” (citing Heller, 554 U.S. at 631, 635)); United States v.
Barton, 633 F.3d 168, 171 (3d Cir. 2011) (list of presumptively

8a
B. The Third Circuit’s Two-Part Test for
Analyzing Second Amendment Challenges
Our first occasion after Heller to decide a Second
Amendment challenge involved a statute prohibiting
the possession of handguns with obliterated serial
numbers. In Marzzarella, we applied a two-part test
for evaluating Second Amendment challenges: “First,
we ask whether the challenged law imposes a burden
on conduct falling within the scope of the Second
Amendment’s guarantee.”18 If it does not, we need not
proceed to the second step. If it does, however, we
assess the law under heightened scrutiny.19 Where the
law survives heightened scrutiny, it is constitutional;
if not, it is invalid.20 In Marzzarella, we held that even
if the law did impose a burden on protected conduct,
in view of the government’s interest in tracing
weapons through serial numbers, the law survived
intermediate scrutiny.21
A year later, in United States v. Barton, we heard a
challenge to 18 U.S.0 § 922(g)(1), the federal statute
banning felons from gun possession.22 In Barton, we
lawful regulations reflects historical understanding of Second
Amendment right), overruled on other grounds by Binderup, 836
F.3d at 349, 350.
18

Marzzarella, 614 F.3d at 89.

19

The Heller Court stopped short of announcing the level of
scrutiny that applies when a law infringes on Second Amendment
rights. It cautioned nevertheless that rational basis review would
not suffice. 544 U.S. at 628 n.27 (“If all that was required to
overcome the right to keep and bear arms was a rational basis,
the Second Amendment . . . would have no effect.”).
20

Marzzarella, 614 F.3d at 89.

21

Id. at 95, 98-99.

22

633 F.3d at 173-75. In Barton, we also denied the challenger’s facial attack of the statute “because Heller requires that

9a
determined that, even though felon dispossession
statutes were presumptively lawful under Heller,
§ 922(g)(1) could still be challenged as it applied to
individuals.23 In evaluating such a challenge, we
turned to the traditional justifications underlying the
§ 922(g)(1) ban on gun possession by felons to determine whether these justifications supported permanent
disarmament. This review was informed by the historical approach the Court applied in Heller. There,
the Court explained that it would “expound upon the
historical justifications for” presumptively lawful regulations “if and when those [regulations] come before
[it].”24
In Barton, our historical review informed us that,
traditionally, individuals who committed violent offenses
were barred from gun possession; “the common law
right to keep and bear arms did not extend to this
group.”25 We then held that to successfully raise an asapplied challenge, the challenger had to distinguish
his circumstances from those of persons historicallybarred from possession of a firearm by demonstrating
either (1) that he was convicted of a minor, nonviolent
crime and thus “he is no more dangerous than a typical
law-abiding citizen”; or (2) that a significant time has
passed so that he has been “rehabilitated” and “poses
no continuing threat to society.”26 Applying this
standard, we concluded that the challenger failed to
we ‘presume,’ under most circumstances, that felon dispossession
statutes regulate conduct which is unprotected by the Second
Amendment.” Id. at 172.
23

Id. at 173.

24

Id. (quoting Heller, 554 U.S. at 635).

25

Id.

26

Id. at 174.

10a
distinguish his circumstances, which included prior
convictions for possession of cocaine with intent to
distribute and for receipt of a stolen firearm.27 As a
result, we held that the statute was constitutional as
applied to him.28
Five years after Barton, in Binderup, we decided
another as-applied challenge to § 922(g)(1), this time
by two individuals, Daniel Binderup and Julio Suarez,
seeking to distinguish themselves from the historicallybarred class of felons. Many years earlier, the
challengers had been convicted of potentially serious
offenses, defined by the state as misdemeanors. They
had since led lives free of criminal convictions, except
for Suarez who had one conviction for driving under
the influence of alcohol.29 We were tasked with determining whether § 922(g)(1) was unconstitutional as
applied to the challengers, given their “rehabilitation”
after the offenses they had committed.
In deciding the as-applied challenge, we clarified
the applicable test. We explained that, at step one
of Marzzarella, a challenger “must (1) identify the
traditional justifications for excluding from Second
Amendment protections the class of which he appears
to be a member, and then (2) present facts about
himself and his background that distinguish his circumstances from those of persons in the historically
barred class.”30 If a challenger passes these two hurdles,
“the burden shifts to the Government to demonstrate

27

Id.

28

Id. at 175.

29

Binderup, 836 F.3d at 340.

30

Id. at 346-47 (internal citations omitted).

11a
that the regulation satisfies some form of heightened
scrutiny . . . at step two of the Marzzarella analysis.”31
In making this clarification, we overruled Barton
insofar as, at the first step, it allowed a challenger to
distinguish himself from a historically-barred class by
demonstrating the passage of time or evidence of
rehabilitation.32 As we noted in Binderup, the historical justification for disarming felons was that they
were “unvirtuous,” a term historically applied to individuals who had committed “serious” crimes.33 Where
the historical justification for disarming felons was
because they had committed serious crimes, risk of
violent recidivism was irrelevant, “and the seriousness
of the purportedly disqualifying offense is our sole
focus throughout Marzzarella’s first step.”34 We therefore emphasized that neither passage of time nor
evidence of rehabilitation “can restore Second Amendment rights that were forfeited.”35 After Binderup, the
only way a felon can distinguish himself from the
historically-barred class of individuals who have been
convicted of serious crimes is by demonstrating that
his conviction was for a non-serious crime, i.e., that he
is literally not a part of the historically-barred class.36
Three factors supported our conclusion that Barton’s
emphasis on rehabilitation evidence was misplaced.
First, there was no historical support for the proposition that Second Amendment rights could be restored
31

Id. at 347.

32

Id. at 349.

33

Id. at 348.

34

Id. at 350 (emphasis added).

35

Id.

36

Id at 349-50

12a
after they were forfeited, and historical context was
the guiding principle for our Second Amendment
analysis.37 Second, to the extent such a restoration
remedy was available, it was a matter of congressional
grace.38 Third, and most importantly, we held that
courts are “not ‘institutionally equipped’ to conduct ‘a
neutral, wide-ranging investigation’ into post-conviction assertions of rehabilitation.”39
37

Id. at 350.

38

Id. As Judge Fuentes explained in his concurrence, by a
separate provision of the federal gun laws, 18 U.S.C. § 925(c),
Congress provided an opportunity for individuals who were prohibited from possessing guns to apply to the Attorney General for
“relief from the disabilities imposed by Federal laws.” Id. at 402.
The Attorney General was given the power to “grant such relief
if it is established to his satisfaction that the circumstances
regarding the disability, and the applicant’s record and reputation, are such that the applicant will not be likely to act in a
manner dangerous to public safety . . . .” 18 U.S.C. § 925(c).
Pursuant to the statute, an applicant who is denied relief by the
Attorney General may petition a district court for relief.
This relief provision, however, has been “rendered inoperative”
because Congress defended this program in 1992, and an “embargo
on funds has remained in place ever since.” Binderup, 836 F.3d
at 402-03 (Fuentes, J., concurring). “Congress effectively wr[ote]
§ 925(c) out of the statute books” because it concluded that the
task of granting individual applications was “a very difficult and
subjective task which could have devastating consequences for
innocent citizens if the wrong decision is made.” Id. at 403
(quoting S. Rep. No. 102-353, at 19). A House report also stated
that “too many of these felons whose gun ownership rights were
restored went on to commit violent crimes with firearms.” Id.
(citing H.R. Rep. No. 104-183, at 15). Congress therefore concluded that a system for restoring gun rights was unworkable. Id.
39

Id. at 350 (quoting United States v. Bean, 537 U.S. 71, 77
(2002)). After Congress defended the § 925(c) restoration program
described above, individuals barred from possessing firearms
under federal law began filing suits asking federal district courts

13a
II. Whether § 922(g)(4) Burdens Conduct Falling
Within the Scope of the Second Amendment
Turning to the case before us and the constitutionality of § 922(g)(4) as applied to Beers, Marzzarella
and Binderup require Beers to demonstrate that this
statute burdens conduct protected by the Second Amendment. To do so, he must “(1) identify the traditional
justifications for excluding from Second Amendment
protections the class of which he appears to be a
member, and then (2) present facts about himself and
his background that distinguish his circumstances from
those of persons in the historically barred class.”40
Beers has not been able to do so. Even though he
claims to be rehabilitated, Beers cannot distinguish
himself from the historically-barred class of mentally
ill individuals who were excluded from Second Amendment protection because of the danger they had posed
to themselves and to others.
Section 922(g)(4) prohibits the possession of firearms by anyone “who has been adjudicated as a
to review their restoration applications in the first instance. We
ruled in Pontarelli v. United States Department of Treasury that
Congress’s denial of funds to process § 925(c) restoration applications stripped the federal district courts of jurisdiction to review
the Justice Department’s refusal to act on those applications. 285
F.3d 216, 230 (3d Cir. 2002). We also noted the institutional
limitations and lack of resources of federal courts to conduct
detailed investigations of applicants’ backgrounds and their recent
conduct. Id. at 230-31. The Supreme Court later confirmed this
understanding in holding that the § 925(c) “inquiry into [an]
applicant’s background [is] a function best performed by the
Executive, which, unlike courts, is institutionally equipped for
conducting a neutral, wide-ranging investigation.” Bean, 537 U.S.
at 77.
40

Binderup, 836 F.3d at 346-47 (internal citations omitted).

14a
mental defective or who has been committed to a
mental institution.” The Code of Federal Regulations
defines “adjudicated as a mental defective” to include,
among other definitions, “[a] determination by a court,
board, commission, or other lawful authority that a
person, as a result of . . . mental illness . . . [i]s a danger
to himself or to others . . . .”41 The Code defines
“committed to a mental institution” as a “[f]ormal
commitment of a person to a mental institution by a
court, board, commission, or other lawful authority,”
including “commitment to a mental institution involuntarily” and “commitment for mental defectiveness
or mental illness.”42 Because the Code has defined the
terms employed in § 922(g)(4) and because Beers was
committed involuntarily by the Pennsylvania court to
a psychiatric hospital in conformity with 27 CFR
§ 478.11 and with 50 Pa. C.S. §§ 7302-7304, we conclude that Beers has properly been identified as a
member of the class described in § 922(g)(4).
To support our conclusion, we will review the
traditional justifications for prohibiting the mentally
ill from possessing guns in order to consider then if the
imposition of the § 922(g)(4) ban is justified.
A. The Traditional Justifications for Excluding
Mentally Ill Individuals from Second
Amendment Protections
Traditionally, individuals who were considered dangerous to the public or to themselves were outside of
the scope of Second Amendment protection. Although
laws specifically excluding the mentally ill from firearm possession did not begin appearing until later,
41

27 C.F.R. § 478.11.

42

Id.

15a
such laws were not necessary during the eighteenth
century.43 At that time, judicial officials were authorized
to “lock up” so-called “lunatics” or other individuals
with dangerous mental impairments.44 Thus, courts
analyzing the traditional justifications for disarming
the mentally ill have noted that “if taking away a
lunatic’s liberty was permissible, then we should find
the ‘lesser intrusion’ of taking his or her firearms was
also permissible.45
The historical record cited in Binderup supports this
conclusion. In Binderup, we turned to the precursor to
the Second Amendment, the Address and Reasons of
Dissent of the Minority of the Convention of the State
of Pennsylvania to Their Constituents. That Address
states that citizens did not have a right to bear arms
if they had committed a crime. The Address goes on to
note that citizens were excluded from the right to bear
arms if they were a “real danger of public injury.”46 We
can therefore ascertain that the traditional justification for disarming mentally ill individuals was that
43

See Carlton F.W. Larson, Four Exceptions in Search of A
Theory: District of Columbia v. Heller and Judicial Ipse Dixit, 60
HASTINGS L.J. 1371, 13773 (2009).
The tools of deduction employed here to conclude that the
mentally ill were historically-barred from gun ownership, where
there is little evidence of specific historic prohibitions, are the
same means we employed in Binderup. Indeed, laws prohibiting
felons from gun possession were also relatively new. See Barton,
633 F.3d at 173.
44

Larson, supra note 43, at 1377-78 (citations omitted).

45

Jefferies v. Sessions, 278 F. Supp. 3d 831, 841 (E.D. Pa. 2017)
(quoting Keyes v. Lynch, 195 F. Supp. 3d 702, 718 (M.D. Pa.
2016)).
46

Binderup, 836 F.3d at 349 (quoting 2 Bernard Schwartz, The
Bill of Rights: A Documentary History 662, 665 (1971)).

16a
they were considered dangerous to themselves and/or
to the public at large.
B. Beers’s Circumstances
Having identified the traditional justification for
denying the mentally ill the right to arms—that they
present a danger to themselves or to others—we now
ask whether Beers has presented sufficient facts to
distinguish his circumstances from those of members
in this historically-barred class.47 Beers’s only bases
for distinguishing himself, however, are that a
substantial amount of time has passed since he was
institutionalized and that he is now rehabilitated.
We established in Binderup that neither passage of
time nor evidence of rehabilitation “can restore Second
Amendment rights that were forfeited.”48 There was
no historical support for the proposition that forfeited
rights could be restored.49
In Binderup, we held that a challenger to § 922(g)(1)
could distinguish his circumstances only by demonstrating that he was not convicted of a serious crime,
but not by demonstrating that he had reformed or been
rehabilitated. We reached this conclusion after analyzing the historical underpinnings of such a ban, which
indicated that individuals who had committed serious
crimes were traditionally prohibited from gun possession. Because the challengers in Binderup had not
committed serious crimes, a ban on their right to
bear arms was unconstitutional as it applied to them.
Passage of time and evidence of rehabilitation, however, had no bearing on whether the challengers were
47

Binderup, 836 F.3d at 349.

48

Id. at 350

49

Id.

17a
convicted of serious crimes. Such evidence, therefore,
was irrelevant in our analysis at step one.
Here, the historical underpinnings of § 922(g)(4)
were to keep guns from individuals who posed a danger
to themselves or to others.50 Beers was committed to
a mental institution for this very reason: he was
suicidal, and a court determined that he was a danger
to himself or to others. The doctor who examined Beers
noted that inpatient treatment was needed for Beers’s
safety. Additionally, Pennsylvania courts extended
Beers’s involuntary commitment on two occasions.
Beers cannot distinguish his circumstances by
arguing that he is no longer a danger to himself or to
others. Acceptance of his argument would sidestep the
ruling we made in Binderup that neither passage of
time nor evidence of rehabilitation “can restore Second
Amendment rights that were forfeited.”51 Instead, the
only way Beers can distinguish his circumstances is by
demonstrating that he was never determined to be a
danger to himself or to others. This Beers cannot do.
Moreover, the reasons that justified disregarding
passage of time or rehabilitation in Binderup apply
50

In Tyler v. Hillsdale County Sheriff’s Department, the Sixth
Circuit reached the opposite result to the one we reach here,
concluding that § 922(g)(4) burdened the Second Amendment
rights of the challenger, an individual who was also involuntarily
committed because of the danger he posed to himself or to others.
837 F.3d 678, 683 (6th Cir. 2016) (en banc). In reaching that
conclusion, the Sixth Circuit found lacking the historical support
for prohibitions on the possession of firearms by the mentally ill.
Id. at 689-90. For the reasons we have stated above, we disagree
that there is an absence of historical evidence that mentally ill
individuals, who were considered a danger to themselves or to
others, were banned from possessing guns.
51

Binderup, 836 F.3d at 350.

18a
here with equal force. First, there is no historical
support for such restoration of Second Amendment
rights. In addition, as was the case in Binderup, federal
courts are ill-equipped to determine whether any particular individual who was previously deemed mentally
ill should have his or her firearm rights restored.52
Because Beers cannot distinguish his circumstances,
we conclude that § 922(g)(4) as applied to him does not
burden conduct falling within the scope of the Second
Amendment.53
Nothing in our opinion should be read as perpetuating the stigma surrounding mental illness. Although
Beers may now be rehabilitated, we do not consider
this fact in the context of the very circumscribed,
historical inquiry we must conduct at step one.
Historically, our forebearers saw a danger in providing
mentally ill individuals the right to possess guns. That
understanding requires us to conclude that § 922(g)(4)
is constitutional as applied to Beers.
CONCLUSION
For the foregoing reasons, we will affirm the
judgment of the District Court.
52

Id. See supra n.39. We realize that state courts participate
in the involuntary commitment of mentally ill persons who are a
danger to themselves or to others, see, e.g., 50 Pa. C.S. § 7302.
The federal courts do not, however, participate in such commitments, nor do they have the resources to conduct detailed
investigations of an individual’s mental state or his recent
conduct. Cf. Pontarelli, 285 F.3d at 230-31 (holding that, in
regard to restoration of gun right to felons, federal courts lack
resources to conduct detailed investigations of applicants’ background and their recent conduct.)
53

Beers therefore fails to surpass the first step of our Second
Amendment framework, and we need not proceed to step two.

19a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
————
Civil Action No. 2:16-cv-6440
————
BRADLEY BEERS, et al.,
v.
LYNCH, et al.
————
ORDER
AND NOW, this 5th day of September 2017, upon
consideration of Defendants’ Motion to Dismiss (Doc.
No. 19), Plaintiffs’ Answer and Memorandum in Opposition (Doc. Nos. 24, 24-1), and Defendants’ Reply (Doc.
No. 26), it is hereby ORDERED that the Defendants’
Motion (Doc. No. 19) is GRANTED. Plaintiffs’
complaint is DISMISSED with prejudice.
This action challenges federal and Pennsylvania law
disqualifying individuals who had been committed to
mental institutions from owning firearms. Plaintiffs
Bradley Beers and Joseph DiVita, who had been committed pursuant to Pennsylvania law, sued federal
and Pennsylvania agencies and officials, alleging violations of their rights under the Second Amendment of
the U.S. Constitution, the Due Process Clause under
the Fifth Amendment, and Equal Protection and Due
Process Clauses of the Fourteenth Amendment.
Plaintiffs subsequently dismissed their suit against
Pennsylvania Defendants. Federal Defendants moved
to dismiss under Federal Rule of Civil Procedure

20a
12(b)(6). Because Plaintiffs have failed to state a
claim under the Second Amendment, and their Fifth
Amendment Claims likewise fail, Defendants’ motion
to dismiss is granted.
I. Background
Bradley and DiVita bring this suit against the
Jefferson B. Sessions, III, Attorney General of the
United States; the U.S. Department of Justice; Thomas
E. Brandon, Acting Director of the Bureau of Alcohol,
Tabacco, Firearms, and Explosives, (“ATF”); Ronald B.
Turk, Deputy Director of the ATF; the ATF; James B.
Comey, Director of the Federal Bureau of Investigation
(“FBI”); the FBI; and the United States of America
(“Federal Defendants”), as well as Josh Shapiro, Attorney
General of Pennsylvania; the Pennsylvania State Police;
Tyree Blocker, Commissioner of the Pennsylvania
State Police; Edward J. Donnelly, Sheriff of Bucks
County; and Matthew D. Weintraub, District Attorney
of Bucks County (“Pennsylvania Defendants”).
Plaintiffs allege that they had been involuntarily
committed pursuant to Pennsylvania’s Mental Health
Procedures Act (“MPHA”), 50 P.S. §§ 7101 et seq,
which provides for civil commitment of mental ill
persons. Under the MPHA, an individual may receive
involuntary emergency examinations and treatment
authorized by a physician, not to exceed 120 hours,
where there is “reasonable grounds to believe [the
individual] is severely mentally disable and in need of
immediate treatment.” 50 P.S. § 7302. Involuntary
emergency treatment may be extended if a judge or
mental health review officer finds that the individual
is “severely mentally disabled,” provided that the
treatment does not exceed 20 days. Id. § 7303.

21a
Beers was committed on December 28, 2005, pursuant to § 7302. At the time, Beers was in college, and
was depressed and suicidal. Compl. Ex. A at 1 (Doc.
No. 1). He told his mother that he had put a gun in his
mouth, that he had nothing to offer his family and
nothing to live for, and that he was “going to fucking
kill [him]self.” Id. at 3; Compl. ¶¶ 26-27. Beers owned
and had in his bedroom a musket, gun powder, and
lead mini balls, items he used when participating in
Civil War reenactments. Compl. ¶¶ 36-37; Ex. A at 4.
His mother, concerned with his well-being and the fact
that “he does have the means to carry out his plan to
kill himself,” took Beers to the Lower Bucks Hospital
for inpatient mental health evaluation, which Beers
had refused. Compl. Ex. A at 2-4. A physician examined Beers, who expressed “feelings of depression”
and “no way out.” Id. at 7. The physician determined
Beers was depressed and suicidal, and that inpatient
treatment was needed for his safety. Id. In light of this
determination, the physician further determined that
Beers was “severely mentally disabled” and certified
that Beers should be admitted to a facility for treatment not to exceed 120 hours. Id.
Subsequently, Beers was admitted for extended
involuntary emergency treatment following a hearing
before the Bucks County Court of Common Pleas, at
which Beers was represented by an attorney from the
public defender’s office. A mental health review officer
found Beers was severely mentally disabled and in
need of treatment, and ordered Beers committed for a
period not to exceed 7 days, pursuant to § 7303 of the
MHPA. Compl. Ex. B at 1. In January 2006, at another
hearing before the Bucks County Court of Common
Pleas, at which Beers was represented by another
public defender, a judge found Beers was severely
mentally disabled and in need of treatment, and

22a
ordered Beers committed for a period not to exceed 90
days. Compl. Ex. C at 1.
Approximately midyear in 2006, Beers attempted to
buy a gun, and was denied because he was listed in the
Pennsylvania State Police Instant Background Check
as a person “adjudicated as mentally defective or involuntarily committee to a mental institution or incompetent
to handle their own affairs.” Compl. ¶¶ 48, 52. Beers
did not appeal the denial. Id. ¶ 54.
Joseph DiVita was involuntarily committed on
November 7, 1988.1 DiVita had taken some LSD and
was experiencing hallucination and paranoia. Compl.
Ex. E at 1-2. In addition, he threatened his father with
a knife and refused to put the knife down. Id. at 2. He
also stated, “I would kill myself if I could get my hands
on a gun.” Id. DiVita’s father had a gun collection in
his house, where DiVita also lived. Id. at 4. Concerned
with DiVita’s health and safety, DiVita’s oldest sister
took him to Doylestown hospital, where a physician
found that DiVita was suicidal and a danger to himself,
and certified that his commitment under § 7302.2
Id. DiVita received treatment at Horsham Clinic and
continued to receive therapy after his release. Id. at
2-3. In 2015, DiVita was denied a concealed carry
license on the basis of his commitment. Compl. ¶ 67.
1

DiVita, unlike Beers, did not attach the records and forms
underlying his involuntary commitment with the Complaint.
Rather, information regarding the circumstances of his involuntary commitment was provided in the report of Bruce Eimer,
PhD. Compl. Ex. E.
2

To the extent DiVita alleges in the complaint that his
involuntary commitment was improper, the record does not reflect
any attempt to challenge that commitment pursuant to Pa. C.S.A.
§ 6111.1(g), which provides for review of the sufficiency of
evidence upon which the commitment was based.

23a
The Complaint alleges three counts. Count I asserts
that federal and state prohibition of individuals who
have been involuntarily committed from owning or
possessing firearms, under 18 U.S.C. § 992(g)(4) and
18 Pa. C.S.A. § 6105(c)(4), violates Plaintiffs’ rights
under the Second Amendment of the U.S. Constitution.
Compl. ¶¶ 79-82. Count II asserts the ban of a certain
class of individuals—those who have been involuntarily
committed—from acquiring a firearm “without providing for a means to seek review and relief” violates
Plaintiffs’ rights under the Due Process Clause of the
Fifth Amendment. Compl. ¶¶ 87-88. Count III asserts
the ban of individuals who have been involuntarily
committed from acquiring firearms “without providing
for a means to seek review and relief” violates Plaintiffs’ rights under the Equal Protection and Due Process
Clauses of the Fourteenth Amendment. Compl. ¶¶ 9395. For Counts I, II, and III, Plaintiffs seek declaratory
relief that 18 U.S.C. § 992(g)(4) and 18 Pa. C.S.A.
§ 6105(c)(4) violate Plaintiffs’ rights under the Second,
Fifth, and Fourteenth Amendments. Plaintiffs also
seek injunctive relief from enforcement of these laws
against them. Finally, Plaintiffs request costs and fees.
Additionally, in Counts IV and V, Plaintiffs seek
relief from their disability from possessing firearms
under 18 Pa. C.S.A. § 6105(c)(4). Subsequently, the
Court of Common Pleas of Bucks County entered
orders, pursuant to 18 Pa. C.S.A. § 6105, relieving
Beers and DeVita “from any and all disabilities with
respect to a person’s right to own, possess, use, control,
sell, purchase, transfer, manufacture, receive, ship or
transport firearm.” Beers Stip. Ex. A (Doc. No. 29);
DiVita Stip. Ex. A (Doc. No. 30). Plaintiffs stipulated
to the dismissal of their claims against the state
Defendants. Beers Stip. (Doc. No. 29); DiVita Stip.
(Doc. No. 30).

24a
Federal Defendants move to dismiss the complaint.
II. Legal Standard
Federal Rule of Civil Procedure 12(b)(6) authorizes
dismissal of a complaint for “failure to state a claim
upon which relief can be granted.” In evaluating a
motion to dismiss under Rule 12(b)(6), a district court
must “accept all factual allegations as true, construe
the complaint in the light most favorable to the plaintiff, and determine whether, under any reasonable
reading of the complaint, the plaintiff may be entitled
to relief.” Fowler v. UPMC Shadyside, 578 F.3d 203,
210 (3d Cir. 2009). A complaint must plead “enough
facts to state a claim to relief that is plausible on its
face.” Fed. R. Civ. P. 8(a)(2); Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009); Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555, 570 (2007). A claim has “facial plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.”
Iqbal, 556 U.S. at 678 (citing Twombly, 550 U.S. at
556). In assessing the sufficiency of a complaint, the
court may consider the pleadings, public record, orders,
exhibits attached to the complaint, and documents
incorporated into the complaint by reference. Tellabs,
Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308, 322
(2007). Ordinarily, a plaintiff must be afforded an
opportunity to amend his or her complaint when it is
dismissed for failure to state a claim, unless a curative
amendment “would be inequitable or futile.” Phillips
v. Cty. of Allegheny, 515 F.3d 224, 245 (3d Cir. 2008).
III. Discussion
a. Second Amendment Claims
The Supreme Court held that the Second Amendment
conferred an individual right to keep and bear arms.

25a
Dist. of Columbia v. Heller, 554 U.S. 570, 595, 626
(2008). However, the Supreme Court also recognized,
the right to bear arms, though venerable, is qualified.
See id. Heller made clear that “nothing in our opinion
should be taken to cast doubt on longstanding prohibitions on the possession of firearms by felons and the
mentally ill.” Id. Federal law prohibits an individual
who “has been committed to a mental institution” from
possessing a firearm. 18 U.S.C. § 922(g)(4).
In applying Heller, the Third Circuit has established
a two-pronged approach for Second Amendment
challenges:
First, we ask whether the challenged law imposes
a burden on conduct falling within the scope of the
Second Amendment’s guarantee. If it does not, our
inquiry is complete. If it does, we evaluate the law
under some form of means-end scrutiny. If the
law passes muster under that standard, it is
constitutional. If it fails, it is invalid.
United States v. Marzzarella, 614 F.3d 85, 89 (3d Cir.
2010); see also Binderup v. Att’y Gen., 836 F.3d 336,
356 (3d Cir. 2016).
Defendants argue that, applying this standard,
Plaintiffs’ Second Amendment claims should be dismissed because (1) § 922(g)(4) affects conduct that falls
outside the scope of the Second Amendment’s protection; and (2) in any event, § 922(g)(4) as applied to
Plaintiffs passes muster under constitutional scrutiny.
Plaintiffs argue that under United States v. Greeno,
679 F.3d 510 (6th Cir. 2012), the burden is on the
government to “conclusively demonstrate” that the
regulated activity fell outside the right to keep or
bear arms, although Plaintiffs neither address Third
Circuit precedent on point nor explain why this Court

26a
should apply an out-of-circuit test rather than Third
Circuit authority.
The Third Circuit has made clear that “Heller
delineates some of the boundaries of the Second
Amendment right to bear arms.” Marzzarella, 614
F.3d at 92. Among those limitations on the Second
Amendment right to bear arms is the disqualification
of persons who were previously involuntarily committed for prior mental illness. Id. 614 F.3d at 91-92. Here,
Plaintiffs assert Second Amendment claims based on
their disqualification under § 922(g)(4), which prohibits gun ownership by any individual “who has been
adjudicated as a mental defective or who has been
committed to a mental institution[.]” 18 U.S.C. § 922(g)(4).
Beers was committed to a mental institution based on
threats of harm to himself under §§ 7302 and 7303;
DiVita was committed to a mental institution for
threats of harm to himself and others under § 7302.
Nowhere in the pleadings have Plaintiffs distinguished their circumstances from those of persons
subject to “longstanding prohibitions on the possession
of firearms.” See Marzzarella, 614 F.3d at 89.
Therefore, under the first prong of the Marzzarella
inquiry—whether the challenged law imposes a
burden on conduct falling within the scope of the
Second Amendment’s guarantee—Plaintiffs’ claims
fail because the conduct at issue falls outside the scope
of the Second Amendment’s protection. See Heller, 554
U.S. at 595, 626.
Plaintiffs’ argument regarding their “current fitness”
to possess firearms is of no moment, because § 922(g)(4)
does not include an exception for current fitness for
gun possession. The Third Circuit has not addressed
the “current fitness” argument in the context of
§ 922(g)(4); however, it has rejected the argument in

27a
the context of § 922(g)(1), the provision that disqualifies felons from gun possession. The Third Circuit
stated, “evidence of a challenger’s rehabilitation or his
likelihood of recidivism is not relevant to the step-one
analysis” in the Marzzarella test, that is, whether the
challenged law imposes a burden on conduct falling
within the scope of the Second Amendment’s guarantee. See Binderup v. Att’y Gen., 836 F.3d at 344, 356.
Furthermore, at least in the § 922(g)(1) context,
“[t]here is no historical support for the view that the
passage of time or evidence of rehabilitation can restore
Second Amendment rights that were forfeited.” Id. 836
F.3d at 350.
Given that § 922(g)(4) is a “presumptively lawful
regulatory measure” and that, here, there is no burden
on conduct falling within the scope of the Second
Amendment’s guarantee, under the Marzzarella test,
“our inquiry is complete.” Marzzarella, 614 F.3d at 89.
Although Plaintiffs argue that § 922(g)(4) is unconstitutional as applied to them because they are “safe,
sane, [and] mentally stable” and pose no risk of harm
to oneself or others, Plaintiffs’ Opp. at 6, no Supreme
Court or Third Circuit precedent has allowed an asapplied challenge to § 922(g)(4).3 Furthermore, although

3

Indeed, the Supreme Court has noted that courts are not
“institutionally equipped” to conduct wide-ranging investigations
into whether a person dispossessed under § 922(g) is likely to act
in a manner dangerous to public safety. United States v. Bean,
537 U.S. 71, 77 (2002). Further, regarding another provision
under § 922(g), the Third Circuit has stated that this is not an
inquiry that courts are well suited to conduct. Presented with an
argument for an as-applied challenge under § 922(g)(1), the Third
Circuit stated, “courts possess neither the resources to conduct
the requisite investigations nor the expertise to predict accurately
predict which felonFs may carry guns without threatening the

28a
Plaintiffs urge the application of United States v.
Barton’s test for as-applied challenges under § 922(g)(1),
633 F.3d 168 (3d Cir. 2011), the Third Circuit
specifically overruled Barton in this respect: “[t]o the
extent Barton holds that people convicted of serious
crimes may regain their lost Second Amendment
rights after not posing a threat to society for a period
of time, it is overruled.” Binderup, 836 F.3d at 350.
This Court declines to Plaintiffs’ invitation to depart
from Third Circuit authority or follow precedent that
has been overruled.
Given that, in Count I, Plaintiffs have not stated a
claim for which relief may be granted, Defendants’
motion to dismiss the Second Amendment Claim is
granted. Next, this Court must consider whether an
opportunity to amend the complaint would be futile.
Under § 922(g)(4), any individual “who has been
adjudicated as a mental defective or who has been
committed to a mental institution” is disqualified from
gun ownership. 18 U.S.C. § 922(g)(4). Beers and
DiVita plead that they were committed to mental
institutions pursuant to Pennsylvania law, and attached
documentation supporting those assertions. As such,
Plaintiffs are disqualified from firearms ownership
under § 922(g)(4). Therefore, as a matter of law, Plaintiffs cannot show that § 922(g)(4) imposes a burden
on conduct falling within the scope of the Second
Amendment’s guarantee, and opportunities for amending the complaint would be futile. See Phillips v. Cty.
of Allegheny, 515 F.3d at 245. Accordingly, Count I is
dismissed with prejudice.

public’s safety.” Pontarelli v. U.S. Dep’t of Treasury, 285 F.3d 216,
231 (3d Cir. 2002) (en banc).

29a
b. Fifth Amendment Due Process Claims
The Fifth Amendment Due Process Clause protects
the individuals against arbitrary action of government, Cty. of Sacramento v. Lewis, 523 U.S. 833,
845 (1998), and includes substantive and procedural
components. Washington v. Glucksberg, 521 U.S. 702,
719-20 (1997) (“The Due Process Clause guarantees
more than fair process . . . The Clause also provides
heightened protection against government interference
with certain fundamental rights and liberty interests.”);
Combs v. Homer-Center Sch. Dist., 540 F.3d 231, 247
(3d Cir. 2008). However, the Supreme Court has sharply
circumscribed substantive due process, limiting its
protections to only those that are “carefully described,”
and unenumerated rights that are “deeply rooted in
this Nation’s history and tradition” and “implicit in the
concept of ordered liberty.” Chavez v. Martinez, 538
U.S. 760, 775 (2003) (citing Glucksberg, 521 U.S. at
720-21) (internal quotations omitted).
Plaintiffs allege that they “have been deprived of
their Second Amendment right . . . without being
afforded notice and an opportunity to be heard on the
matter prior to the deprivation” and were without “a
post-deprivation proceeding to seek and obtain relief
from the deprivation.” Compl. ¶ 88. This Court
construes Plaintiffs as making both substantive and
procedural due process claims and considers them in
turn. First, as to substantive due process, Plaintiffs’
claims are premised on the assertion that their Second
Amendment rights have been violated. However,
because Plaintiffs have not sufficiently alleged any
Second Amendment violation, they fail to sufficiently
allege substantive due process claims. See Dist. Att’y’s
Office for Third Judicial Dist. v. Osborne, 557 U.S. 52,
69 (2009) (refusing to recognize a liberty interest

30a
protected by due process unless it is “so rooted in the
traditions and conscience of our people as to be ranked
as fundamental” (internal quotation marks and citation
omitted)).
Next, Plaintiffs’ procedural due process claims are
based on their allegation that they were not provided
pre- and post-deprivation hearings. Compl. ¶ 88.
Procedural due process protects an individual’s fundamental opportunity to be heard at a meaningful
time and in a meaningful manner. Mathews v. Eldridge,
424 U.S. 319, 333 (1976). The Supreme Court has
made clear that “due process does not require the
opportunity to prove a fact that is not material to the
. . . statutory scheme.” Conn. Dep’t of Pub. Safety v.
Doe, 538 U.S. 1, 4 (2003). Under the statutory scheme
at issue, § 922(g)(4) prohibits gun ownership by any
individual “who has been adjudicated as a mental
defective or who has been committed to a mental
institution[.]” 18 U.S.C. § 922(g)(4). Plaintiffs’ current
mental health is distinct from and irrelevant to the
issue of whether Plaintiffs had been adjudicated as a
mental defective or committed to a mental institution.
As the Supreme Court stated, regarding disqualification from gun ownership under § 922(g)(4):
A person adjudicated as a mental defective may
later be adjudged competent, and a person
committed to a mental institution later may be
deemed cured and released. Yet Congress made
no exception for subsequent curative events. The
past adjudication or commitment disqualifies.
Congress obviously felt that such a person, though
unfortunate, was too much of a risk to be allowed
firearms privileges.
Dickerson v. New Banner Inst. Inc., 460 U.S. 103, 11617 (1983). Additionally, neither the Supreme Court

31a
nor the Third Circuit has held that due process
requires a hearing to determine whether an individual
who had been disqualified from gun ownership for
involuntarily commitment is currently dangerous. See,
e.g., Keyes v. Lynch, 195 F.Supp.3d 702, 723 (M.D. Pa.
2016). Further, in a procedural due process challenge
to another provision under § 922(g), the Third Circuit
specifically rejected the argument that a felon was
entitled to a hearing to determine his future dangerousness. Bell v. United States, 574 F.App’x 59, 61 (3d
Cir. 2014) (discussing disqualification under § 922(g)(1)).
In Bell, the Third Circuit affirmed the District Court’s
holding that “due process does not entitle [a felon] to a
hearing to determine whether he is currently dangerous because the results of such a hearing would have
no bearing on whether he is subject to the disability
imposed by § 922(g)(1).” See Id.; Bell v. United States,
2013 WL 5763219, at *3 (E.D. Pa. Oct. 24, 2013).
Therefore, Plaintiffs have not sufficiently alleged that
they are entitled procedural due process.4 Accordingly,
Plaintiffs’ Fifth Amendment due process claim fails,
and Defendants’ motion to dismiss the claim is
granted.5

4

To the extent DiVita attempts to attack his 1988 commitment
in this action, a federal proceeding is an improper venue to collaterally attack a § 922(g) disqualifying event. See United States
v. Leuschen, 395 F.3d 155, 158-59 (3d Cir. 2005) (holding that
because § 922(g)(1) is triggered by the fact of a felony conviction
rather than its validity, a defendant “cannot collaterally attack
his predicate conviction in defense of his prosecution under
§ 922(g)(1)”); United States v. McIlwain, 772 F.3d 688, 698 (11th
Cir. 2014) (stating, in the § 922(g)(4) context, a plaintiff is not
entitled “to collateral attack in federal court on a commitment he
did not—and has not in any way—challenged in state court”).
5

To the extent Plaintiffs allege equal protection claims under
the Fifth Amendment, pleading that a “ban on a certain class

32a
c. Fourteenth Amendment Claims
In Count III, Plaintiffs assert claims against the
Pennsylvania Defendants that the prohibition on
possession of firearm under federal law infringes their
rights under the Fourteenth Amendment. The Fourteenth Amendment mandates that “no State shall . . .
deprive any person of life, liberty, or property, without
due process of law.” U.S. CONST. amend. XIV, § 1. The
Fourteenth Amendment describes a legal obligation
of all states. See Dusenbery v. United States, 534
U.S. 161, 167 (2002). In light of Plaintiffs’ stipulation
that the Court of Common Pleas in Bucks County,
Pennsylvania, has relieved them of disabilities with
respect to gun possession, their claims against the
Pennsylvania Defendants are moot. As to the Federal
Defendants, the Fourteenth Amendment’s Equal
Protection Clause applies to the federal government
through the Fifth Amendment’s Due Process Clause,
and this Court has addressed Plaintiffs’ Fifth Amendment claims in the prior section. Therefore, Count III
is dismissed with prejudice.

of individuals—individuals who have ever been involuntarily
committed—[from] acquiring a firearm . . . violates plaintiffs’
rights to equal protection,” Compl. ¶ 87, Plaintiffs have not
alleged that they are members of any suspect class, and have
failed to allege how the statute would fail under rational basis
review. See United States v. One (1) Vyatskie Polyany Mach. Bldg.
Plant Molot VERP Rifle, 473 F.Supp.2d 374, 377-78 (E.D.N.Y.
2007); see also United States v. Huitron-Guizar, 678 F.3d 1164,
1167 (10th Cir. 2012); United States v. Vongxay, 594 F.3d 1111,
1119 (9th Cir. 2010).

33a
IV. Conclusion
For the reasons stated above, Defendants’ motion to
dismiss is granted. Plaintiffs’ complaint is dismissed
with prejudice.
BY THE COURT:
/s/ Legrome D. Davis
Legrome D. Davis, J.

34a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 17-3010
————
BRADLEY BEERS;
JOSEPH DIVITA*,
Appellants
v.
ATTORNEY GENERAL UNITED STATES OF
AMERICA; DEPARTMENT OF JUSTICE; UNITED
STATES BUREAU OF ALCOHOL TOBACCO FIREARMS
& EXPLOSIVES; THOMAS E. BRANDON, Deputy
Director of the ATF; RONALD B. TURK, Associates
Deputy Director/Chief Operating Office of the
ATF; FEDERAL BUREAU OF INVESTIGATION;
DIRECTOR FEDERAL BUREAU OF INVESTIGATION;
UNITED STATES OF AMERICA; PENNSYLVANIA
ATTORNEY GENERAL; PENNSYLVANIA STATE POLICE;
TYREE BLOCKER, Commissioner of the Pennsylvania
State Police; EDWARD DONNELLY, Bucks County
Sheriff; BUCKS COUNTY SHERIFFS DEPARTMENT;
BUCKS COUNTY DISTRICT ATTORNEY
*(Party Dismissed Pursuant to
Court Order dated 02/13/18)
————
(D.C. Civil Action No. 2-16-cv-06440)
————
SUR PETITION FOR REHEARING

35a
Present: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, *ROTH and *RENDELL,
Circuit Judges
The petition for rehearing filed by appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is denied.
BY THE COURT,
s/ JANE R. ROTH
Circuit Judge
Dated: September 11, 2019
PDB/cc: All Counsel of Record

*

The votes of the Honorable Jane R. Roth and Marjorie O.
Rendell are limited to panel rehearing only.

36a
APPENDIX D
18 U.S.C. § 922 – Unlawful acts
(g) It shall be unlawful for any person—
(4) who has been adjudicated as a mental defective
or who has been committed to a mental institution;
to ship or transport in interstate or foreign commerce,
or possess in or affecting commerce, any firearm or
ammunition; or to receive any firearm or ammunition
which has been shipped or transported in interstate or
foreign commerce.

37a
34 U.S.C. § 40915 – Relief from disabilities
program required as condition for participation
in grant programs
(a) Program described
A relief from disabilities program is implemented by
a State in accordance with this section if the program—
(1) permits a person who, pursuant to State law, has
been adjudicated as described in subsection (g)(4) of
section 922 of title 18 or has been committed to a mental institution, to apply to the State for relief from the
disabilities imposed by subsections (d)(4) and (g)(4) of
such section by reason of the adjudication or commitment;
(2) provides that a State court, board, commission,
or other lawful authority shall grant the relief, pursuant to State law and in accordance with the principles
of due process, if the circumstances regarding the disabilities referred to in paragraph (1), and the person’s
record and reputation, are such that the person will
not be likely to act in a manner dangerous to public
safety and that the granting of the relief would not be
contrary to the public interest; and
(3) permits a person whose application for the relief is
denied to file a petition with the State court of appropriate
jurisdiction for a de novo judicial review of the denial.
(b) Authority to provide relief from certain disabilities
with respect to firearms
If, under a State relief from disabilities program
implemented in accordance with this section, an
application for relief referred to in subsection (a)(1) of
this section is granted with respect to an adjudication
or a commitment to a mental institution or based upon
a removal of a record under section 40912(c)(1)(B) of
this title, the adjudication or commitment, as the case
may be, is deemed not to have occurred for purposes of
subsections (d)(4) and (g)(4) of section 922 of title 18.

38a
18 Pa. Cons. Stat. § 6105 – Persons not to possess,
use manufacture, control, sell or transfer firearms
(f) Other exemptions and proceedings.—
(1) Upon application to the court of common pleas
under this subsection by an applicant subject to the
prohibitions under subsection (c)(4), the court may
grant such relief as it deems appropriate if the court
determines that the applicant may possess a firearm
without risk to the applicant or any other person.
(2) If application is made under this subsection for
relief from the disability imposed under subsection
(c)(6), notice of such application shall be given to the
person who had petitioned for the protection from abuse
order, and such person shall be a party to the proceedings. Notice of any court order or amendment to a
court order restoring firearms possession or control
shall be given to the person who had petitioned for the
protection from abuse order, to the sheriff and to the
Pennsylvania State Police. The application and any
proceedings on the application shall comply with 23
Pa.C.S. Ch. 61 (relating to protection from abuse).
(3) All hearings conducted under this subsection shall
be closed unless otherwise requested to be open by the
applicant.
(4)(i) The owner of any seized or confiscated firearms
or of any firearms ordered relinquished under 23
Pa.C.S. § 6108 shall be provided with a signed and
dated written receipt by the appropriate law enforcement agency. This receipt shall include, but not limited to, a detailed identifying description indicating
the serial number and condition of the firearm. In
addition, the appropriate law enforcement agency shall
be liable to the lawful owner of said confiscated, seized
or relinquished firearm for any loss, damage or sub-

39a
stantial decrease in value of said firearm that is a
direct result of a lack of reasonable care by the appropriate law enforcement agency.
(ii) Firearms shall not be engraved or permanently marked in any manner, including, but not limited to, engraving of evidence or other identification
numbers. Unless reasonable suspicion exists to believe
that a particular firearm has been used in the commission of a crime, no firearm shall be test fired. Any
reduction in the value of a firearm due to test firing,
engraving or permanently marking in violation of this
paragraph shall be considered damage, and the law
enforcement agency shall be liable to the lawful owner
of the firearm for the reduction in value caused by the
test firing, engraving or permanently marking.
(iii) For purposes of this paragraph, the term “firearm” shall include any scope, sight, bipod, sling, light,
magazine, clip, ammunition or other firearm accessory
attached to or seized, confiscated or relinquished with
a firearm.

